CERTIFICATE OF WORD COUNT
NO. 20-990
Thomas J. Dart, Sheriff of Cook County, Illinois,
Petitioner,
v.
Anthony Mays, Et Al.,
Respondents.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the THE NATIONAL SHERIFFS’
ASSOCIATION AND CALIFORNIA STATE ASSOCIATION OF COUNTIES AMICI CURIAE BRIEF AT PETITION
STAGE IN SUPPORT OF PETITIONER contains 3585 words, including the parts of the brief that are
required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
February 24, 2021

SCP Tracking: Champagne-260 Judge Edward Dufresne Parkway-Cover Cream

